<html>
<title> - REDUCING HURRICANE AND FLOOD RISK IN THE NATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





            REDUCING HURRICANE AND FLOOD RISK IN THE NATION

=======================================================================

                                (109-38)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-918 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Dickey, G. Edward, Ph.D, Affiliate Professor of Economics, 
  Loyola College of Maryland, Baltimore, Maryland................     8
 Emmer, Rodney E., Executive Director, Louisiana Floodplain 
  Management Assiciation, Member, Association of State Floodplain 
  Managers, Inc..................................................     8
 Galloway, Gerald E., P.E., Ph.D, Glenn L. Martin Institute 
  Professor of Engineering, University of Maryland College Park..     8
 Rabbon, Peter D., P.E., General Manager, California Reclamation 
  Board, President, National Association of Flood and Stormwater 
  Management Agencies............................................     8

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    33
Costello, Hon. Jerry F., of Illinois.............................    34
Oberstar, Hon. James L., of Minnesota............................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Dickey, G. Edward...............................................    35
 Emmer, Rodney E.................................................    39
 Galloway, Gerald E..............................................    47
 Rabbon, Peter D.................................................    57

 
            REDUCING HURRICANE AND FLOOD RISK IN THE NATION

                              ----------                              


                       Thursday, October 27, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. John J. Duncan 
[chairman of the committee] presiding.
    Mr. Duncan. I want to welcome everyone to our hearing this 
morning on Reducing Hurricane and Flood Risk in the Nation. 
Last week, we held two hearings more specifically related to 
the tragic events associated with Hurricane Katrina. But as I 
mentioned at the second of those hearings, we are starting to 
get requests from communities all across the Nation.
    We have seen in the Gulf region what can happen when 
hurricane and flood protection infrastructure is inadequate or 
fails to perform. Today, we will broaden our focus a little bit 
and expand it out to more national concerns, or to the Nation 
as a whole. What is the condition of our hurricane and flood 
protection infrastructure? What should it be? Do we need to 
make policy changes to be sure that we are making the best 
investments of taxpayer dollars?
    I hope that our witnesses today will help us answer some of 
those questions and give us other good advice and suggestions. 
We do not know where the next hurricane or flood will hit. But 
we do know that many of our major cities, including parts of 
this city, and many others, have a greater probability of 
flooding than did New Orleans.
    And there are some facts about hurricane and flood risks 
that should cause us some concern. First, more Americans are 
moving to coastal areas where the risk of hurricanes and floods 
is greatest. In the South Atlantic region, the coastal 
population grew 51 percent from 1980 to 2000, and it is 
expected to increase another 13 or 15 percent by 2008. Along 
the Gulf of Mexico, the population increased by 38 percent from 
1980 to 2000. It is projected by the Government to grow an 
additional 12 percent at least by 2008.
    Secondly, our infrastructure is aging. The National 
Inventory of Dams shows that 45 percent of our Federal dams are 
at least 50 years old, and that over 80 percent of them are at 
least 30 years old. We know even less about the status and 
capabilities of our levees. There has never been a national 
inventory of levees. Over the decades, levees have been built 
by different entities at different times and to different 
standards. They have been linked together to provide a 
protective system for a city, but with such a mixture of 
conditions; sort of a hodgepodge of construction. The true 
level of protection certainly is in doubt.
    Every day, the Nation's engineers and scientists learn more 
about the reliability and limitations of dams and levees. New 
techniques and materials are discovered in the laboratories. 
Without investments in infrastructure, we cannot benefit from 
what we have learned and take advantage of the advance that we 
should of the progress that's being made. Clearly, cities can 
do a great deal to protect their citizens from floods through 
good urban planning and emergency management plans. But 
structural measures, such as levees and dams, will always be 
necessary in some situations. We must make sure that the 
infrastructure we have is well maintained and modern.
    Currently, Congress authorizes projects that meet the basic 
criteria of being in the Federal interest and are technically 
feasible, economically justified and environmentally sound. 
Projects are planned and constructed with non-Federal partners 
sharing in the costs. With limited funds going to flood control 
projects, we need to consider whether there are better ways to 
provide flood protection at less cost. Should budget 
constraints dictate the level of protection we offer to a city?
    We found in New Orleans many citizens could not evacuate. 
Is that a factor to consider in planning flood protection of 
other cities? Perhaps more could be done to encourage cities to 
use their power of zoning to reduce the need for expensive 
flood control projects. Perhaps we can streamline the planning 
and construct some processes, so that good projects can be 
dealt quicker.
    Are we adequately examining the full range of flood 
protection alternatives? These are some of the questions that 
we have, and I look forward to hearing from the witnesses on 
the panel today, a very distinguished panel of witnesses.
    I now recognize our Ranking Member, my good friend, Ms. 
Johnson, for her opening remarks.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Today the Subcommittee continues its review of issues 
concerning flood damage and hurricane protection. While the 
first two hearings focused primarily on the aftermath of the 
Hurricanes Katrina and Rita and the Gulf Coast, today's hearing 
is more general. We focus on recommendations for change in the 
way the U.S. addresses deadly risks of hurricanes and floods.
    Too often, there is a tendency to do things the way we do 
them because that's the way we've always done them. I fear that 
the Federal, State and local approach to flood and hurricane 
risk falls into this category.
    Hurricanes Katrina and Rita exposed shortcomings in U.S. 
policies: hurricane protection, economic opportunity, social 
equality, housing and others. It is critical that we take these 
lessons to heart and ensure that we do our part to correct 
them.
    For example, we evaluate Corps of Engineers projects based 
upon analysis of benefits to whom they may accrue, and have 
since 1936. While there have been modifications to how and what 
the Corps studies in developing projects, the basic test has 
remained the same. That same 1936 Flood Control Act also stated 
that there was a Federal interest in controlling the effects of 
floods where the lives and social security of people are 
otherwise adversely affected.
    Maybe we need to modify the test of the 1936 Act, or maybe 
we need to renew the emphasis on lives and social security. 
These hearings will help frame these deliberations.
    Others in the debate, such as our colleague from Oregon, 
Mr. Blumenauer, advocate change in the Principles and 
Guidelines and some of today's testimony also calls for review. 
Of course, no matter what the Federal policy is, it will be 
less than fully effective if we fail to adequately fund the 
program.
    For too long, we have tried to accomplish our 
infrastructure goals while shortchanging them. The Corps' 
budget is stagnant. It took over two years of intense 
negotiations to extend the highway and transit programs. And 
they are self-financing.
    Mr. Chairman, I don't profess to know the answers to 
meeting our national goals for flood and hurricane damage 
reduction. I am not even sure what the national goals are. But 
I congratulate you for having today's dialogue, and I look 
forward to working with you and all the members of this 
Committee to ensure that we have the best national policy and 
the resources and determinations to see it through.
    Thank you, and I welcome the witnesses.
    Mr. Duncan. Thank you very much.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you very much, Mr. Chairman, for 
holding this hearing. The three of us a few weeks ago went down 
and flew from New Orleans to Mobile, Alabama, hopscotched and 
stopped on a number of places along the way to look at near 
total devastation. It was stunning and extraordinary, so I want 
to compliment the Chairman for holding a series of hearings, so 
we can grasp a sense of the magnitude of the problem, so over 
the coming decades the policy of this Government will be to 
make sure that people are protected, stay out of harm's way, 
and understand the nature of nature and the nature of human 
engineering. Sometimes they collide and exacerbate each other 
in extraordinary fashion.
    Just very quickly, I represent the Chesapeake Bay region. 
The Chesapeake Bay, in the last century, sea level rose one 
foot. That's due to sea level rise, natural sea level rise, and 
subsidence. Something very similar to what you have in coastal 
Louisiana.
    Now, in the next century, the estimate is by all accounts 
three feet. That is due again to sea level rise and subsidence. 
Now, if we read some of the data, in the next several decades a 
quarter of all the homes within 500 feet of many coastal areas 
will be lost to erosion and likely lost to storm surges or 
hurricanes. But simple erosion coming from natural forces.
    I think what we are trying to collect in this hearing is 
some understanding about the policies we should make, basically 
to keep people out of harm's way. So I think the best way to 
proceed is for you to give us some understanding of how best to 
collect the data about flood plains, vulnerable coastal areas, 
for us to come up with a way to communicate that data, to not 
only people that potentially want to live there, but to local 
governments.
    I think if I was the Governor of Maryland, I would say you 
can't have a real estate agent's license unless you pass a test 
that involves two things: understanding the ecological 
functions of the Chesapeake Bay and understanding the 
ecological vulnerabilities of building along the shorelines of 
the coastal areas. I don't know if I would get elected if that 
was my platform.
    Collect the data on all the coastal areas, where are the 
erosion rates the most, what is significant about sea level 
rise, and it happens slowly, but it's a fact. And it does 
exacerbate storm surges, it does exacerbate erosion, subsidence 
problems, communicating that data. What kind of mapping do we 
need in the form of digital mapping, so local emergency 
management boards know what their region looks like and 
communicate that, and how much funding might you recommend for 
us to have that kind of digital mapping?
    Then the other thing is, I think we basically know the 
answer to this, but there seems to be a clear need for us, 
instead of having a policy that incentivizes people to move to 
the coast, we probably need some kind of policy, looking back 
to 1968 when we created Federal flood insurance, some type of 
policy to dis-incentivize people from moving to vulnerable 
areas. And pretty much how do we do that. What would it cost to 
retrofit all the structures that are in vulnerable areas right 
now, so they don't get blown down again? And some type of 
mechanism to steer people away from moving to vulnerable areas.
    This is a tall order. And I think we are probably at the 
very early stages of understanding future ramifications for 
having human activity grossly incompatible with nature's 
design. And we have a huge heart for those people who lost 
their homes, who are trying to move back into their homes, who 
lost all their possessions.
    So as we go through these hearings and try to understand 
how to help the people most in need, create a policy so this 
doesn't repeat itself over the course of the coming decades.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Gilchrest.
    Our panel today consists of Mr. Peter D. Rabbon, who is 
here representing the National Association of Flood and 
Stormwater Management Agencies. He is the General Manager of 
the California Reclamation Board. He is here from San 
Francisco.
    Representing the Association of State Floodplain Managers 
is Dr. Rodney Emmer. He is the Executive Director of the 
Louisiana Floodplain Managers Association, and he has come to 
us from Baton Rouge. As Mr. Gilchrest mentioned, we had 11 
members who went down to view the damage in Louisiana and 
Mississippi and Alabama, and we were in Baton Rouge just a 
little over three weeks ago.
    Dr. Gerald E. Galloway, who is a Professor of Engineering 
at the University of Maryland at College Park; and Dr. G. 
Edward Dickey, who is an Affiliate Professor of Economics at 
Loyola College in Maryland, and he is here with us from 
Baltimore. We appreciate very much, gentlemen, each of you 
taking time out from your various busy schedules to be here 
with us this morning.
    Before we start with your testimony, we are always honored 
to have the Ranking Member of the full Committee, Mr. Oberstar, 
here with us. I would like to give him a moment to make any 
comments that he has.
    Mr. Oberstar. Thank you very much, Mr. Chairman. My hat is 
off to you for persisting in this series of inquiries into 
flood control, flood protection, getting the facts out on the 
table. As I said and as you confirmed in our tour of the Gulf 
States, we were there and we are here to find facts, not fault. 
There will be plenty of time to do the latter. What we are 
pursuing now is the how and the what to do.
    This Committee and this Subcommittee and its predecessor, 
the Rivers and Harbors Subcommittee, has been engaged with the 
flood control needs and the navigation improvement needs of the 
whole Gulf, the Gulf Intracoastal Waterway System, the 
Mississippi River system, the Port of New Orleans as the most 
important grain export facility in the world since the origins 
of the Congress. In 1789, the first committee created was the 
Rivers and Harbors Committee, which undertook the 
responsibilities of opening the interior of the Nation to human 
expansion and to commercial development.
    There was a great deal of discussion, I recall in my first 
two terms in Congress, on this Subcommittee, about what to do 
with New Orleans. Should the levees be built to withstand the 
most extensive, powerful hurricane yet known, which was 
somewhere in the range of a category 3, category 4, there were 
very imprecise compared to today measures of hurricane forces 
at the time. There was also concern about the underlying 
strength of the sub-soil as we have today, there was great 
concern about rebuilding the wetlands as the buffer zones. We 
will continue that discussion in the course of these hearings 
and meetings.
    What is at greater issue though is the whether, whether we 
should invest financial resources to rebuild New Orleans. We 
had quite a discussion about this last week in your very fine 
hearings, Mr. Chairman. You really gathered an array of people.
    I want to put a little historical perspective on it this 
morning. A book that I read a few years ago, which I commend, 
one of the few books that Stephen Ambrose hasn't written about 
American history, is the Battle of New Orleans, Andrew Jackson 
and America's First Military Victory. The book opens, ``It was 
a battle that changed the course of American history, a battle 
that convinced Americans they had earned the right to be 
independent, and that their sovereignty would be respected once 
and for all around the globe. It was a battle that thundered a 
once-poor, wretchedly educated orphaned boy into the White 
House, Andrew Jackson.''
    Two hundred pages later, the book concludes, ``The great 
Battle of New Orleans produced a President and an enduring 
belief in the military ability of free people to protect and 
preserve their society and their way of life. The last six 
months is the proudest period in the history of the Republic, 
declared Niles' Weekly Register. We demonstrated to mankind a 
capacity to acquire a skill in arms, to conquer the conquerors 
of us all, as Wellington's Invincibles were modestly styled. 
Who would not be an American? Long live the Republic, last 
asylum of oppressed humanity.''
    That is what the Battle of New Orleans meant, that is what 
this region meant. It brought America together. The historian 
writes, ``From this moment on, Americans believed 
wholeheartedly in the superiority of American institutions, 
representative government, a society that rewarded talent and 
individual initiative instead of class and bloodlines. They 
also believed this kind of society would spread around the 
globe and its institutions would lift people out of their 
humiliating subjugation to kings, emperors and czars.''
    That is what is at stake in the rebuilding of New Orleans. 
This historical legacy that launched the New Republic, that 
consolidated America, that brought Americans together. We must 
not let it fall apart. Its historical significance is too great 
for all Americans.
    The only question then in my mind that remains is the how. 
And these hearings will point us in that direction. Thank you, 
Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Oberstar. PBS started a series 
several years ago called The Presidents. It must not have been 
very successful, because they had a group of us down at the 
White House for a lecture on Andrew Jackson by that gentleman. 
I have always remembered that one of the last things he said 
was that Andrew Jackson became obsessed with paying off the 
national debt at that time and leaving the Country debt-free. 
He got it paid off and the national debt at that time was $4 
million.
    [Laughter.]
    Mr. Duncan. It is now over $8 trillion. That's a lot of 
difference.
    I read an article this morning about one of the champion 
marathoners in the Congress, Mr. Blumenauer. We are glad to 
have you with us this morning. Do you have any comments?
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I must commend you, our Committee leadership, for focusing 
in on this. And I appreciate our Ranking Member, Mr. Oberstar, 
establishing the historic context. I think the more we 
understand history in the full context, the better we will be.
    I was struck by the one line there about how people, as a 
result of this, were convinced of the strength and power of our 
institutions, to paraphrase. Well, I think what you are doing 
with this work here is for us to hold a mirror up and look at 
some of our institutions, some of our practices and some of our 
programs. Because I think what we will hear from our witnesses 
today is they haven't necessarily kept pace with what we know 
about the science, about hydrology, about best practices.
    And sadly, Congress has been in the middle of the problem. 
We haven't done a very good job of being able to deal with the 
priorities and focus in and hear from the many experts who have 
appeared before us. I appreciate what the Subcommittee is doing 
to look critically at how we deal with New Orleans, how we deal 
with the great Mississippi in the context of not only history, 
but where we go forward from here.
    I look forward to our panel. I won't share more of my own 
biases, other than to say that I hope that we will be able to 
look more aggressively in the tradeoffs in investments. I hope 
that we will be able to gather their wisdom to look at some of 
the non-structural alternatives, that we will be able to do a 
better job of prioritizing what Congress will do with the vast 
investments that are before us.
    I hope that someday we will even update the Principles and 
Guidelines that date back to 1983. I am sure under the 
leadership of this Committee, we will be able to drag them into 
the new century.
    I appreciate the hearing, I appreciate the opportunity and 
I look forward to hearing from our witnesses.
    Mr. Duncan. I told my staff yesterday, Mr. Blumenauer, that 
you would mention the revision of the Principles and 
Guidelines. I am glad you didn't let me down.
    Mr. Blumenauer. I never want to let you down, Mr. Chairman.
    [Laughter.]
    Mr. Duncan. Thank you. Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I'm from southeast Texas. Jefferson County is one of the 
counties that was hit by Rita. The people in Jefferson County, 
specifically Port Arthur, Texas, are just as important as the 
people in New Orleans. The 40 year old levee in Port Arthur, 
Texas, did not break, that was built by the Corps of Engineers. 
I hope that we can shed some light on how we can equalize the 
recovery of the entire Gulf Cost, not just concentrate on one 
city of New Orleans, but the damage that was created by 
Hurricane Rita as well.
    So I look forward to the testimony.
    Mr. Duncan. Thank you very much.
    Ms. Schwartz.
    Ms. Schwartz. Thank you, Mr. Chairman. I would just very 
briefly say I look forward to your remarks. Also I would 
associate myself with most of Mr. Blumenauer's remarks. I don't 
know as much about the regulations he is wanting to update, but 
I hope that we can look both structurally and environmentally 
at the ways we may be able to be hopefully smarter and more 
creative as we look to both remediate and rebuild and prevent 
future flooding.
    So I would be interested in some of the accelerating 
wetlands conservation as a part of the discussion that we have 
about infrastructure demands as well. I hope we can hear some 
of that in the course of this panel and as we move forward.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much.
    Ranking Member Oberstar mentioned that in his first two 
terms in office while serving on this Subcommittee, that flood 
protection for New Orleans was discussed at that time. The 
Congress did approve in 1965 a barrier protection plan for New 
Orleans that the Army Corps and some others think might have 
prevented much of the flooding that occurred there. It was 
stopped and not carried out because of a series of lawsuits 
with some local opposition.
    But I am hopeful that after we have all of these hearings 
and we have gone to the scene that some of this leads us to 
take appropriate action. I hope we can reach consensus on some 
of the things that need to be done.
    I have introduced the panel, and gentlemen, each of your 
full statements will be placed in the record. You can 
summarize. Most subcommittees give the witnesses five minutes. 
I give you six minutes. But if you see me raise this gavel, I 
want you to stop because that is in consideration of other 
witnesses and also in consideration of the members of the panel 
who want to ask questions.
    So Mr. Rabbon, you may begin your statement.

TESTIMONY OF PETER D. RABBON, P.E., GENERAL MANAGER, CALIFORNIA 
RECLAMATION BOARD, PRESIDENT, NATIONAL ASSOCIATION OF FLOOD AND 
  STORMWATER MANAGEMENT AGENCIES; RODNEY E. EMMER, EXECUTIVE 
DIRECTOR, LOUISIANA FLOODPLAIN MANAGEMENT ASSOCIATION, MEMBER, 
   ASSOCIATION OF STATE FLOODPLAIN MANAGERS, INC.; GERALD E. 
 GALLOWAY, P.E., PH.D, GLENN L. MARTIN INSTITUTE PROFESSOR OF 
  ENGINEERING, UNIVERSITY OF MARYLAND COLLEGE PARK; G. EDWARD 
DICKEY, PH.D, AFFILIATE PROFESSOR OF ECONOMICS, LOYOLA COLLEGE 
                     OF MARYLAND, BALTIMORE

    Mr. Rabbon. Thank you, Chairman Duncan. On behalf of 
NAFSMA, we want to thank you for the opportunity we have today. 
I personally want to thank you for the comments I have heard. 
It demonstrates clearly you are concerned, but also you 
understand the issue before you. We hope that NAFSMA can 
provide you some recommendations that you think may be worthy 
of consideration.
    We have six key recommendations we would like to submit. 
There is a common theme in all of them, and it is basically 
safety first. We do recommend that you review the Principles 
and Guidelines for the Corps of Engineers with an eye toward 
safety first. The P&Gs are a very comprehensive document, yet 
they miss one item. They miss the fact that you cannot place a 
value on life by looking at a cost benefit formula.
    For example, what that means is, it is possible to have a 
beat flooding situation for a population of a given size that 
may be economically depressed, where you would not have a 
viable project or Federal interest. On the other hand, you 
could have that same size population in a shallow flooding area 
of a prosperous neighborhood that would qualify for a Federal 
project because of the way your benefit cost ratio works in the 
policies and guidelines.
    So we suggest, number one, for safety first, review the 
policy and guidelines to start looking at what you are trying 
to do, which is protect the public from flooding. Number two, 
incentive-based cost sharing. We recommend that you look at 
your cost sharing and provide incentives to develop more 
balanced programs, not just providing funding for structural 
projects, but what about if you took a more balanced approach 
of structural and gave consideration or incentive for non-
structural approaches too?
    Not only does that improve public safety, but that can 
improve your quality of life. If you are going to recognize and 
give incentives to local projects where they say, provide 
recreational areas or provide open space or improve the 
environment, that not only improves quality of life, that also 
has set aside areas where you will not be putting more people 
at risk. So a more balanced approach through incentive cost 
sharing can help put public safety first.
    Item number three, streamlining the permitting process. 
Once we have a Federal project in place, it needs to be 
operated and maintained for perpetuity. You cannot drive a car 
without maintaining it, you cannot continue to live in a house 
without maintenance. Nor can you expect to live behind a 
federally authorized flood control project without maintenance. 
So we are recommending, if you want to put public safety first, 
that we look at streamlining the process necessary to obtain 
permits to operate and maintain the federally authorized 
projects that the non-Federal entities are asked to maintain.
    Number four, NAFSMA supports a national levee study. We 
would like to see the Federal Government commit to assess the 
State's flood management projects, not just those that are 
federally authorized, but all flood control projects out there. 
Because if it is federally authorized, or a local project, if 
there is a failure, there will be a Federal agency out there 
after the failure. You will see the Corps there or you will see 
FEMA there.
    So we would suggest, it is better than you first go out, 
know what is out there, then determine the status of that 
project and then go even further if there is a necessity to do 
it, to repair that or bring it up to more current standards. 
Again, this put the public safety first. It gives you an 
advantage to get out there and be ahead of the problem, so it 
is not a surprise to you.
    Number five, we suggest raising the funding limit on the 
Water Resource Development Act for Section 215 projects. This 
section allows a non-Federal sponsor to do construction on 
their own on projects that are federally authorized and then 
seek reimbursement from the Corps. This too puts public safety 
first. By allowing us to build the project in advance before 
the Federal Government receives funding, we can get the public 
safety projects in faster, it will most likely be cheaper 
because we are going to be beating inflation. So again, public 
safety can come first if we look at something even as simple as 
raising the limits for the Water Resource Development Act 
Section 215.
    Number six, creation of a flood management technical 
advisory committee. Here what we are suggesting is the Corps of 
Engineers take the lead on an advisory committee to facilitate 
and coordinate the Federal policies and programs related to 
flood management. That will allow the Federal Government to act 
as a single government versus separate entities, and it will 
include integration of the programs.
    Thank you for your time. I would be happy to answer any 
questions.
    Mr. Duncan. Thank you very much, Mr. Rabbon. Some very good 
suggestions there.
    Dr. Emmer.
    Mr. Emmer. Thank you. I grew up in New Orleans and live in 
Baton Rouge. Over the past two months, I have had a number of 
guests in my house, and family, friends, dogs and cats. In 
fact, the front yard looked like a Wal-Mart parking lot. So I 
bring personal experience to today's session.
    The fact is, I tell colleagues throughout the United 
States, Louisiana, Texas and Mississippi have had better 
Septembers and Octobers. But hurricanes happen, survival is 
planned, and it is time we move on and look at the future.
    The Association has had many members who are active in 
responding to the impacts of the recent hurricanes. These 
tragedies are reminders to us that we are susceptible to the 
natural hazards that exist along the coastal zones. Therefore, 
we must have problems, policies and institutions that can 
adequately handle these events, efficiently use taxpayer monies 
and build a more sustainable community. We thank you for the 
opportunity to present our ideas to you today.
    The Association envisions a number of key legislative 
policy changes to strengthen the programs of the U.S. Army 
Corps of Engineers. We believe that these initiatives will 
reduce future flood losses of life and property due to 
flooding. First, there needs to be immediate action to 
stabilize the communities and the people. The magnitude of the 
disasters in New Orleans and the Gulf Coast is so great that 
efforts must be taken immediately to stabilize the population 
and return these people to some sense of normalcy.
    The recovery options include: repair and stabilize all 
flood protection works to pre-Katrina design; engage, support 
and encourage State and regional authorities in the creation of 
long term visions for redevelopment from the impacts of the 
storms; to fund programs for coastal Louisiana for the 
continued enhancement, creation and restoration of the coastal 
wetlands and the natural barriers that protect the development 
within coastal Louisiana; and design new structural and non-
structural works to provide a more realistic level of 
protection. Urban areas and critical infrastructures could be 
at the 500 year level of protection, or in the case of New 
Orleans, the levees raised to withstand category 4 or 5 
hurricanes.
    The Nation needs an integrated national levee policy. 
Federal agencies, such as the Corps of Engineers and Natural 
Resource Conservation Service build levees using different 
guidelines. FEMA produces flood maps for 20,000 communities in 
the Nation, many of which rely on these levees. The Association 
believes that these levees should be considered an option of 
last resort and used only to protect existing communities. 
Levees should not be used to protect undeveloped land in 
anticipation of new development that will be placed at risk 
within them.
    Damageable structures behind the levees should be elevated 
or take other mitigation steps to avoid catastrophic damage in 
the case of levee failure overtopping, such as was seen 
recently. The Corps should be tasked to lead a Federal-State-
local work group to develop an integrated national levee 
policy.
    National levee programs, the U.S. has no national inventory 
of levees. Property owners behind levees assume that they are 
protected and so are surprised, angry and often financially 
ruined when levees fail. We see this most recently in New 
Orleans and southeast Louisiana.
    The Corps of Engineers should be charged and funded to 
immediately undertake a national levee safety inspection 
initiative as part of the floodplain management services 
program. This initiative would be similar to the inspection and 
inventory the Corps performed at the instigation of the 
Nation's flood dam safety program. Just as in dam safety, the 
Federal Government should not have continuing or long term 
responsibility for levee safety. This is really the 
responsibility of State and local governments.
    We should undertake wetlands restoration. This is a key to 
structural protection. Experts agree that wetlands provide 
significant flood protection. It was suggested that if wetlands 
had not turned to open water that that damages to New Orleans 
would have been significantly less. We urge Congress to fund 
the appropriate elements of the coastal Louisiana project that 
will provide wetlands protection, enhance or create these 
wetlands or restore them to help protect the cities and the 
levees that surround the cities.
    The level of protection provided by levees is of concern 
also. In highly urbanized areas, in particular, where the 
consequences of failure can be catastrophic, a 1 percent 
standard we feel is insufficient. Therefore, the Association 
supports the concept that in urbanized areas, and for critical 
infrastructures where the impact of flood damage or 
catastrophic Federal flood control projects should be designed 
to provide protection at or about the 0.2 percent or 500 year 
flood level.
    We should reduce the adverse personal economic impacts to 
people who are flooded, develop approaches to provide property 
protection and financial security to those people who believe 
they are protected by structural works and hence think they are 
not at risk. These people have a false sense of security, as we 
saw in New Orleans, in thinking that they will never flood, and 
as such they have not purchased insurance and not taken the 
necessary actions to protect themselves.
    To help with this, we think the Corps of Engineers should 
be directed to work with other appropriate Federal agencies, 
such as FEMA, Natural Resource Conservation and NOAA, to design 
a program to manage the residual risks associated with these 
projects. There should be sufficient additional Federal funding 
for the planning assistance to States and floodplain management 
services.
    There should also be revisions to the Principles and 
Guidelines. We would hope that we could reestablish the 
mitigation funding from 7.5 to 15 percent, as it has been in 
the past.
    We thank you for the opportunity to make our presentation 
to you today and will be happy to answer questions.
    Mr. Duncan. Thank you very much, Mr. Emmer.
    Dr. Galloway.
    Mr. Galloway. Thank you very much, Mr. Chairman. It is a 
privilege to be here today.
    I come to you as a professor, but I have 38 years' 
experience in the U.S. Army, including service as a district 
engineer and 7 years on the Mississippi River Commission. In 
reality, I think I come to you today because in 1993, I was 
assigned to the White House to prepare a study that looked at 
why did we have the 1993 Mississippi River flood and what 
should we do about it.
    For the most part, the lessons we learned in that study of 
the Mississippi flood are the same lessons we are learning 
today from Katrina. The message is very simple: The massive 
flooding that occurred in New Orleans during Hurricane Katrina 
was in part a reflection of a growing lack of attention to our 
national flood damage reduction program.
    The United States, for much of the latter half of the last 
century, had both a well understood national flood protection 
policy and an equally clear program that followed from that 
policy. Unfortunately, we have allowed this policy and those 
programs to atrophy over the last 20 years.
    We would say, as a result of this study and actually the 
experience from Katrina, that people and property are at risk 
in flood-prone communities across our Country. Major floods and 
hurricanes are going to continue to occur. We can expect with 
climate change flooding to get worse.
    New development in the floodplain, without a specific need 
to be there, should be very much discouraged. When we do 
provide protection, it should represent a combination of 
structural and non-structural approaches, including wetland 
restoration. The level of protection we now provide to many 
flood-prone communities is less than is needed and leaves at 
risk those who are provided this inadequate protection.
    We recommended that governments provide a high level of 
protection to those that live in existing population centers 
and pay special attention to critical infrastructure as just 
described. We recommended that in these population centers, the 
urban areas, that they be protected against the standard 
project flood, the 500 year flood or greater.
    When the Nation started its flood control efforts in the 
1930s, the mission was pretty straightforward: prevent 
catastrophes. Over the last 70 years, we have lowered the 
protection level provided by many Federal projects to the 100 
year level, a year that has a 1 in 4 chance of occurrence in 
the lifetime of a 30 year mortgage. In the Netherlands, 
governments provide 10,000 year protection on the coastline, or 
a hurricane equivalent, and 1,250 year protection along the 
major rivers.
    Can our Nation afford to risk losing another metropolitan 
area? Sacramento sits behind one of those 100 year levees. 
People who live behind levees face a residual risk and really 
should be part of the Federal flood insurance program. They 
need to recognize that residual risk and deal with it.
    We must recognize the inherent vulnerability of levees and 
flood walls. Now, levee is not a four letter word in my 
opinion. I believe you can do well constructed and well 
maintained levees, and that they can provide sound protection.
    But the issue is the level of protection they provide, and 
whether or not we are maintaining those levees. There are 
thousands of miles of levees throughout the Country, some built 
by the Federal Government, by State governments, locals and 
developers. We have no accurate measurement of the location and 
integrity of many of these levees. We didn't have it in 1994 
when we did the study, we still don't have it.
    The conduct of a national evaluation of levees should have 
high priority. We should also, as we suggested in this report, 
have FEMA continue to identify flood-prone areas throughout the 
United States.
    It is also critical that governments provide adequate 
funding to support maintenance and necessary upgrades of flood 
damage reduction works. The need for upgrades and improved 
maintenance of the New Orleans system was well-known and the 
same can be said for structures defending many other places in 
the Country. Over 300 miles of mainline Mississippi River levee 
are below design grade and section and need funding.
    We need a clear national policy with respect to flood 
damage reduction goals and responsibilities. The responsibility 
among levels of governments for conceiving and for funding and 
maintaining these flood damage reduction projects is not 
clearly defined.
    Funding and management of protection activities in the 
floodplain is a shared responsibility of all those levels of 
government and those who live there. Flood damage reduction 
should not just be a Federal activity. We urge Congress and the 
Administration, together with the Governors, to define these 
responsibilities so there can be no seams and no dropped balls.
    As part of this effort, we need to define what our ultimate 
objective is in water resource planning. As it is found in the 
Principles section of the Principles and Guidelines, it is 
focused almost entirely on national economic development. As my 
colleagues have said, we need to stretch it further to consider 
the environment and the social effects that we saw in the eyes 
of the people of New Orleans.
    We recommend a floodplain management act to spell out 
national goals and responsibilities. Flood issues need to be 
dealt with on a watershed basis, in a comprehensive matter. 
When we deal with New Orleans flood damage reduction and 
recovery, we also need to tie it in to what needs to be done 
with navigation, with water quality, with water quantity in the 
New Orleans area. We also need to include in there 
environmental restoration.
    Flood catastrophes are national security issues. They 
affect our people, our economy and our environment. How to deal 
with them has been the subject of many studies, and over the 
years we keep coming up with the same recommendations. We need 
to take an approach to flood damage reduction that brings all 
the players to the table in a collaborative approach that 
shares responsibility and shares funding.
    Given the tragedies we have seen over the last few weeks, 
the governments and the public must be prepared to take action 
to do it right this time, to take recommendations out of the 
``too hard'' box and move ahead. Thank you very much, Mr. 
Chairman and members of the Committee.
    Mr. Duncan. Thank you very much, Dr. Galloway.
    Dr. Dickey.
    Mr. Dickey. Thank you very much, Mr. Chairman. It is a 
pleasure to be here today. I have testified before this 
Committee many times in the past, and wearing many different 
hats. Today I am happy to report nobody cleared my testimony.
    [Laughter.]
    Mr. Dickey. From the very beginning of its authorization, 
the civil works projects have been developed based on site-
specific studies containing recommendations tailored to 
specific circumstances. These studies incorporate hydrologic, 
engineering, economic and for several decades now, ecological, 
cultural and other environmental knowledge and analyses. The 
Corps' feasibility study process has served the Nation well and 
has provided us with extensive infrastructure that is essential 
to the effective functioning of our economic system and 
continuing economic growth.
    However, it has not been perfect. Not all projects have 
performed as predicted or have been as productive as 
anticipated. Modifications have been required to accommodate 
changing conditions, new scientific knowledge, technological 
change and changing public values. Insufficient attention was 
paid historically to interactions between engineering 
structures which extensively modified hydrologic regimes and 
the physical and biological environment. Equally important, 
insufficient attention continues to be paid to the impact of 
hazard reduction on human behavior.
    These shortcomings have been amply demonstrated in southern 
Louisiana. Extensive engineering works for managing the 
Mississippi River and numerous large-scale coastal navigation 
and storm damage reduction projects have caused widespread and 
ongoing changes in physical landscapes and ecosystems. These 
changes were not foreseen or if anticipated, were considered to 
be a necessary consequence of economic advancement.
    In addition, these works allowed new patterns of economic 
activity and changed where and how people live and work. The 
historic focus of storm and flood damage reduction project 
development was on reduction of inundation damages to property. 
Clearly, as in the case of New Orleans, insufficient attention 
was paid to residual risks and to the vulnerability of the 
occupants of protected areas when the provided protection 
proved inadequate.
    The potential for disruption of human activity within 
protected areas and the economic consequences to the rest of 
the Nation were not addressed in any detail. The devastation 
wrought by Hurricane Katrina is a compelling demonstration of 
the reality of residual risks and necessity to include its 
management in water resources planning and project 
implementation.
    There are, however, no cookie cutter, one-size-fits-all 
environmentally sensitive solutions to flood and storm threats 
or any other mix of water-related activities. Congress has long 
recognized that fact, and has generally required a Corps of 
Engineers report to be submitted for its consideration before 
it takes action to authorize and fund a project.
    This approach to public decision making allows Government 
to function at its best, making informed choices among 
competing values as identified in a feasibility study. Now, 
situation-specific feasibility studies are important from 
several perspectives.
    State, Federal and local governments not only face 
conflicts among competing values, such as economic growth and 
environmental and social preservation, in virtually every 
resource management situation, they also confront the fact that 
there are more demands for their respective budgetary resources 
than they can possibly satisfy. The reality is that many 
problems must be un-addressed or incompletely solved and many 
opportunities left to the future. It behooves us, therefore, to 
make the best use we can of our limited resources.
    Analysis as practiced by the Corps of Engineers plays an 
essential role in decision making throughout the water resource 
planning process. The Corps of Engineers is required to go well 
beyond the calculation of a benefit-cost ratio for a 
recommended project. Incremental analysis as required by the 
U.S. Water Resources Council's Principles and Guidelines is at 
the heart of the Corps' plan formulation process. Projects of 
different scales and scopes are systematically considered so 
that trade-offs among alternative mixes of project purposes and 
alternative solutions can be identified and the relative merits 
of different plans for resource use be systematically evaluated 
in the light of prevailing economic, environmental and social 
values.
    So we have heard discussion today about changing the 
Principles and Guidelines, and I would have something to say 
about that later if it becomes a question. I do want to 
emphasize that project planning is important not only at the 
project level, but at the programmatic level. We know we can't 
fund all the projects that have been authorized. And it is only 
by having the information that is specific to each investment 
opportunity can Congress choose wisely among competing 
investments.
    And so to that end, I would like to mention four 
recommendations. One is to manage the total flood risk. 
Certainly we have paid insufficient attention to that. 
Secondly, we need to do a better job of quantifying benefits, 
and that is certainly within our capability. It is merely a 
question of policy.
    Thirdly, we need to understand the impacts of resource 
investments on the location of human activity, and that needs 
to be specifically addressed in the planning process. And 
fourthly, I would affirm the recommendation of others here that 
in the case of a project where there is residual risk, and that 
is in every project, people who are protected by the project 
need to be required to have flood insurance.
    Thank you very much, Mr. Chairman.
    Mr. Duncan. Thank you very much, Dr. Dickey. Certainly you 
hit the nail on the head with the key problem that we are 
dealing with, and that is what is the best use of resources 
that are not unlimited.
    I am going to reserve my questions until the end so we can 
get to as many members as possible. I will go first for 
questions to Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    First of all, I want to say welcome to Dr. Dickey. We have 
worked before on a number of occasions, he had a different hat 
on, and he didn't pay attention to whoever he reviewed his 
speeches, which was always appreciated.
    I don't know if you know Dr. Hans, if he is still there at 
Loyola College. But he was the head of a program that I was 
taking a masters course from. I went five years at night, but 
then I ran for Congress, never finished it, didn't get my 
degree. So I wondered if you could see him and see if I could 
get any credit for being in Congress 15 years.
    [Laughter.]
    Mr. Dickey. I will speak to him, sir.
    Mr. Gilchrest. I would appreciate that. And welcome, Dr. 
Galloway, from the University of Maryland, Dr. Emmer from 
Louisiana and Mr. Rabbon from the west coast.
    We appreciate all these recommendations. We will sift 
through them, and I think with the Chairman's leadership, we 
will come up with the kind of policy that will integrate all 
your ideas to better management of the flood systems that we 
have out there, given they be levees or berms or dams or 
whatever it happens to be, and try to not encourage people to 
move into vulnerable areas, sensitive environmental areas, 
flood-prone areas, storm surge areas, by creating an 
opportunity to offset the actual cost of the flood damage 
through insurance premiums. So there is just a whole lot of 
things out there that we want to make sure that we do 
appropriately.
    The question I have, I guess, for all of you, is the Corps 
of Engineers does a lot of this. And I know there is a lot of 
work to be done in Mississippi, Texas, Alabama, along the 
coastal areas of this Country and so on. But Dr. Emmer, if I 
could focus in on just the coastal problems in lower coastal 
Louisiana and New Orleans, I think it would be very helpful for 
us, because this is the bulk of the dollars where it is going 
to be spent in the short term.
    There was 2050, there is now Coastal Louisiana Restoration, 
or Coastal Louisiana whatever it happens to be called, LCA or 
whatever. And there is CWPRA, there is a whole bunch of 
programs going on out there that it looks like we are going to 
give the Corps of Engineers a lead on, because they are the 
ones that would get the money for much of that restoration and 
evaluation.
    And you talked about restoration of natural barriers, 
sediment dispersal, and all of those things. What would be 
helpful for us is if you could come up with what the 
restoration projects are, as specific as possible, the 
wetlands, the coastal barriers, the sediment dispersal, all of 
those things and the kinds of structures that you will do with 
that.
    Number two, an estimate of the cost that that's going to 
be. Recently, I talked to Greg Smith from U.S. Geological 
Survey, I talked to Dr. Twilley from the Louisiana State 
University and a number of other people.
    The last thing, which I think is as important as anything, 
is the entity that is overseeing that. I don't think, in all 
due respect, it can be just the Corps of Engineers. I think a 
collaborative effort with the Corps of Engineers as part of 
this team and probably Fish and Wildlife to have a number of 
projects going on down there, U.S. Geological Survey has an 
important part to play. NOAA has an important part to play in 
that. The State has an important part to play in that. 
Certainly the university people.
    So the entity that will oversee that restoration project, 
and each one of those entities with the Corps of Engineers must 
have an equal voice with the Corps of Engineers. The entity, 
the restoration project and the cost of that project as best as 
you can give that to us. Because on the Senate side, when they 
made this proposal, Senator Landrieu and Senator Vitter, it is 
about $25 billion, they have $14 billion, I believe, for the 
restoration effort. But there are no specifics attached to 
that. And there are no real guidelines for how that is going to 
be done, how long that is going to take.
    It seems to me that, it is my understanding that by 2050 
lower Louisiana could lose 500 square miles of coast, 500 
square miles. And the projects now on the drawing board to 
offset that can only offset half of that. So there is some 
understanding that you will still lose 250 square miles of 
lower Louisiana. So I think some of those things, if you could 
provide to the Committee, would be very helpful.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you.
    Ms. Johnson.
    Ms. Johnson. Mr. Chairman, I would like to yield to our 
Ranking Member, Mr. Oberstar.
    Mr. Oberstar. Thank you. I thank the gentlewoman.
    I too welcome Dr. Dickey back to the Committee. I recall 
his many appearances on behalf of the Secretary of the Army and 
the Corps of Engineers in the 1990s. You were a regular 
presenter at our Committee.
    The issue that this panel has addressed, I think, and each 
of you in a separate way, has been the how and the values 
involved in reclaiming New Orleans. I have listened to 
testimony over several weeks and over 30 years in this 
Committee, there is a tendency to sort of focus on stovepipe 
solutions, one group sees this as an answer, another sees a 
second approach as the answer.
    We need an integrated plan for short term and long term 
responses. Both in the short term and the long term, all the 
factors have to be integrated. I want your reaction, the 
panel's reaction to non-structural, including hard choice that 
New Orleans itself is going to have to make, relocation of 
homes. That comes to the benefit-cost issue.
    But it is one that we should not be making, but the city 
and the State have to make. Are you really going to invite 
people to come back to live in a place that you know cannot be 
protected? Or can be protected only with, as Dr. Galloway said, 
the Netherlands approach of a 10,000 year protection plan, or 
1,250 year protection plan? We don't have that, and we may not 
have the money to do that. Somebody has to make those value 
judgments.
    Wetlands restoration, levees, and balancing that against 
the notion of protecting undeveloped land in the anticipation 
that it might at some future time be developed, that is just 
simply not acceptable. So let me get your thoughts, and start 
with Dr. Dickey and then move from my right to left.
    Mr. Dickey. Mr. Oberstar, you raise of course some very 
difficult policy challenges. First of all, inherent in the 
process that we have, we don't treat all alternatives 
comparably in terms of cost sharing. I think that was talked 
about. If you do non-structural but costs, if you will, in 
other words, if you prevent people from living in the flood 
plain, the people who pay for that are the people who lose 
their property values, have to travel further, etc. The 
incidence falls on those people, as opposed to if you build a 
structural solution, then the Federal Government picks up a 
very large share of the cost.
    So you have this inherent bias in the process. And so the 
cost sharing inherently affects our choices and the pressures 
which the Federal Government feels. So that is certainly one 
problem.
    The basic principle, it seems to me, and I think this gets 
at some of the points that Congressman Gilchrest raised as 
well, is to internalize risk, to place as much risk as you can 
on the people who are going to live in the floodplain, so they 
can make rational responses. And we don't do that now. So that 
would be the first thing I would suggest.
    Mr. Oberstar. Let's move on to Dr. Galloway.
    Mr. Galloway. Very quickly, I think one of the issues we 
have to face is the coordination of Federal programs and State 
programs. We have on one hand FEMA's mitigation program, which 
can help deal with some of these non-structural issues, 
relocation of people out of the flood plain. We need the 
vehicles to mesh those with ongoing Corps of Engineer projects. 
There is a variety of those issues.
    Second, there is the issue of collaboration in the 
planning, as has been suggested. The most heartening thing to 
me is, I went to visit the New Orleans district two years ago 
and I walked into a room, and in the room were cubicles with 
maybe 20 different people. There were 20 different emblems from 
the Federal and State agencies in that room working together. 
They didn't wait until the end--this was LCA, sir--they didn't 
wait until the end of the project to do it, they were 
collaborating every day. That is something we need to carry 
forth.
    I think the issue of restoration of the wetlands and the 
whole issue of coastal Louisiana, we need to do coastal 
Louisiana restoration whether or not it has a direct bearing on 
flooding. It certainly does have a bearing on flooding, but it 
is an ecological necessity, but it is also necessary for the 
protection of far more than coastal Louisiana in the New 
Orleans area, the whole issue of the infrastructure in that 
region.
    Mr. Oberstar. Thank you.
    Mr. Duncan. Thank you very much.
    Dr. Ehlers.
    Mr. Oberstar. Could I just ask the other two to respond?
    Mr. Duncan. Sure.
    Mr. Oberstar. Dr. Emmer?
    Mr. Emmer. Yes, on the issue of non-structural, I think it 
is essential that we mix and match the available Federal 
programs. I don't see this as being very effectively done 
today.
    For example, in the case of relocation of homes in Orleans 
Parish, we estimate there are some 30,000 vacant dwelling units 
right now where you could ask people in unsafe conditions to 
move to these areas and use the open space as open space. They 
do it in Tulsa, we can do it in Louisiana. And move people to 
safer, better homes, upgrade these homes through existing 
Federal programs, and move them out of the flood-prone areas.
    I would also look at elevating homes that have been 
modified, essentially restricting the use of slab homes in 
Orleans and southeast Louisiana within the levee systems. We 
have traditionally built up, we know it works. We should look 
at it again and use the traditional way of building within the 
leveed systems.
    And Mr. Gilchrest, I will answer your questions as soon as 
you all tell me I can answer your questions.
    Mr. Oberstar. On that score, I would just point out that 
homes built over 100 years ago and longer in New Orleans 
escaped the flood. They were built on berms, because in that 
time, those builders knew they had to elevate homes away from 
the damage that they anticipated was inevitable to come from 
hurricanes and flooding. So your point is well taken.
    My wife's older brother has a home that was 100 plus years 
old. It got water up to the threshold. Her younger brother has 
four feet of water in his home, built in another area of New 
Orleans along Jefferson Davis Parkway. It's gone, it's 
hopeless.
    Mr. Rabbon?
    Mr. Rabbon. Thank you.
    What I think you are referring to is the need for a 
balanced program with structural and non-structural solutions. 
There will be places where you have to have a structural 
solution, you have to have a levee. There will be places where 
you can do non-structural type. But it needs to be balanced.
    And to do that, I think it is extremely critical that at 
the Federal Government level, not only that they coordinate and 
collaborate, but that they are forced to actually integrate 
their programs. We frequently work with the Corps or FEMA. Yes, 
they are coordinated, but I think they would be even more 
effective if they truly integrated their programs so it was if 
we were working with a single Federal Government instead of two 
separate agencies with two separate programs.
    Mr. Oberstar. Good advice. Thank you, Mr. Chairman, for the 
extended time.
    Mr. Duncan. Thank you. Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. My question is very 
similar to the previous two. Therefore, I hesitate to ask it, 
but I just haven't gotten the answers, and perhaps it is 
because I am totally ignorant of the situation down there, one 
of the few people who have not been down to look at it.
    I come from Michigan. This past winter we had an unusual 
freeze-thaw cycle. We had a bad ice jam on the river, and there 
was substantial flooding of a group of homes. Those homes are 
basically ruined. The Federal Government came in and said, we 
will buy your homes on the condition that you deed the property 
over to us and not build there again.
    They paid off the cost of the homes and said, you are not 
going to build, no one is ever going to build there again. And 
that is the policy of the Flood Insurance Program.
    That is a little hard for me to understand, why people are 
talking about reconstructing an entire city in a floodplain, 
when you know you can't possibly build 100 percent protection. 
Even the Netherlands, which does the best job in the world, and 
has no choice, because there is no place else for them to go, 
they had a disaster in 1953, which is probably greater than the 
New Orleans disaster.
    They did rebuild, because as I said, they have no place 
else to go. But disasters are going to happen. So why would our 
Country, which does have alternative spaces to build, provide 
the funds to rebuild a city which we know at some point in the 
future is going to flood again? We can put a lot of money into 
flood protection, rebuild the levees and so forth. But you know 
as well as I, at some point, if you are living in hurricane 
country, something is going to happen in the future. It may be 
somewhat different in nature, but it is going to happen.
    So who really is responsible for making that decision as to 
what is going to happen there, and what is the role of the 
Federal Government? If the Federal Government says, we don't 
want to have to pay for this again, and so we are going to 
establish a policy, we will simply not pay a second time for 
damage done through a flood to this area, because it is in the 
floodplain, does the city make the decision as to whether or 
not we are still going to allow construction in that area? Is 
the State going to make that decision or are the individual 
citizens going to make that decision and live with the 
potential loss of everything they have?
    I am just trying to get a handle on this. It just doesn't 
make sense to me to put a lot of money into building in a 
floodplain. I have no problem, even if the floodplain is just a 
foot deep and you can put a berm in, as Mr. Oberstar mentioned, 
that is fine. That is a pretty safe bet.
    But when you are talking about an area, a city that is 
sinking about a meter or a yard per century, you know the 
problem is not going to get better, it is going to get worse. 
And at what level are you simply going to say, I am sorry, 
there is too much danger here, we are not going to let you 
build? I would appreciate answers from anyone. Dr. Emmer?
    Mr. Emmer. I know in Louisiana we have traditionally 
practiced retreat from the coast. New Orleans was founded in 
1718. In 1722, a hurricane came through and destroyed one of 
the first German communities just upriver from New Orleans. 
That community was relocated to higher ground.
    We can look at the hurricanes of 1893, Cheniere Caminada, 
2,000 people died, people moved inland. We look at Betsy in 
1965, same thing, people relocated out of the lower areas in 
the communities such as Manila Village in Jefferson Parish. It 
was destroyed, people did not go back to live in these areas.
    We are seeing right now retreat on a voluntary basis from 
the more flood-prone and hazardous areas. After Hurricane 
Andrew, people moved from below Houma up into the Houma area 
and continued to move north. I would suggest that we will see 
basically the same thing today. It is an evolutionary process.
    I think that what we in Louisiana are saying is that we 
need to draw the line for several reasons. That line is in and 
around New Orleans. We need that because we need to restore the 
wetlands that are in front of New Orleans. Without the 
wetlands, they support a significant part of the fisheries 
resource in the Gulf of Mexico. We need that for not only 
economy of Louisiana, but it supports the shrimping industry in 
Mississippi, the fishing industry in Texas and on around the 
Gulf of Mexico.
    It also supports the infrastructure for the oil and gas 
industry. The fact is the pipelines come onshore, and those 
pipelines were built to be within wetlands, not in the high 
energy conditions of the offshore. So if we don't restore the 
wetlands, we are exposing our petroleum resources as we are 
bringing them in from the Gulf of Mexico.
    The port facility is there. I don't see us relocating the 
port to Mobile. Some activities will go to Mobile. The banana 
industry left New Orleans back in the 1960 and went to 
Gulfport. Some of the container ships are going to Houston. But 
the rest, the bulk cargoes I see staying in New Orleans. In 
order to protect that port, we need to have the wetlands which 
support and have multiple functions and values for the Nation, 
and also protect the city itself.
    So yes, we are retreating, it is on a voluntary basis and 
people accept that. But the line is drawn that New Orleans, 
because of its many values to the Nation, the Midwest, but the 
Nation as a whole, should be protected. And for the other 
resources that the coastal system provides for the Nation as a 
whole, not just for the people who happen to live in Louisiana.
    Mr. Ehlers. Is the State or the city going to simply draw a 
line and say, you can't build on the other side of this line?
    Mr. Emmer. The line is drawn. The line is the artificial 
levees that are in place.
    There was a proposal in St. Charles Parish on the west bank 
within the last five years, developers and special interests on 
the west bank decided they wanted to build. They proposed a 
levee to the Corps of Engineers which said, we want to go out 
this far.
    The Corps said, to their credit, that is a ridiculous line, 
you cannot build out that far, because it consumes the wetlands 
and exposes you to the problems that are associated with 
building in hazardous areas, and forced the levee back to the 
more acceptable conditions, closer to the natural levee, where 
we have better foundation conditions. That levee is being built 
today, but it is to the credit of the Corps that they stood 
firm and decided not to allow for extension of the levees.
    One problem we do have is that when levees are built, we 
occasionally will issue permits at the Federal and State level 
for filling the wetlands that exist within the leveed systems. 
Those areas that were supposedly set aside as stormwater 
detention systems, as habitat. There is an issue that we really 
need to be addressing, is to crank up some backbone and say, 
hey, look, these wetlands were set aside for fisheries 
resources, for habitat, for stormwater detention. And we mean 
it when we say no more permits in these areas.
    Mr. Duncan. All right, thank you very much, Dr. Ehlers.
    Mr. Blumenauer.
    Mr. Blumenauer. I loved the last sentence about growing 
some backbone so that we don't end up compounding the felony. I 
am hopeful that the pattern that we are going to have here will 
end up with reinforcing the ``voluntary retreat.'' I hope there 
is an opportunity to do a big look from east Texas to the 
Florida Panhandle about what the sustaining capacity is to help 
in that effort.
    I must say, Mr. Chairman, that I would like to commend all 
of the panel. This is extraordinarily helpful testimony. A 
number of you represent groups that have been working for 
years, the floodplain managers, God love you, on the flood 
insurance reform, the tortuous five year process would not have 
happened without the professional input. I deeply appreciate 
it. Maybe someday we will implement the bill that we passed.
    I am distributing to each of you a series of principles 
that I have been working on as a way to think about the 
recovery from Katrina. There isn't time now and I don't want to 
spring it on you, but I would like to leave you with a copy of 
these principles that I am working on, thinking about, seek to 
bring to the Committee. I would appreciate any reactions that 
you might have to them.
    Dr. Galloway, I appreciated your testimony. I think you are 
spot on. But you reference the fact that you were a part of a 
very important process a dozen years ago that pointed towards a 
number of the solutions that we are talking about here and 
didn't quite make it. I wondered if you would care to reflect 
on why we didn't quite get there, based on the good work that 
was done in 1993 and 1994, any advice that you want to give the 
Committee in terms of the implementation. And time remaining, I 
would appreciate any of the other panelists responding to that.
    Mr. Galloway. Thank you, sir. It is an interesting case. 
Immediately after the flood, just as with any action concerning 
the flood, everybody is interested in coming up with a 
solution. The half-life of the memory of the flood is very 
short. And for the first year, we had a committee that worked 
with all the Federal agencies and we had a draft executive 
order and we had revisions to the Principles and Guidelines set 
up, and we had people looking at all of these.
    Soon, not very long afterwards, 11, 12, 15 months, they 
began to fade away. We didn't act on them quickly. And other 
priorities moved in their place in the White House and the 
Federal agencies and on the Hill. I met and testified before 
committees and there was a great attempt to move ahead right at 
that point in time. We had a change in the Congress in 1994, 
priorities again shifted. It just fell behind.
    And that is the challenge. We recognize these, you have 
seen my colleagues talk about agreement with most of these 
sorts of recommendations. But the problem is getting them acted 
on. And it really falls in the halls of the Congress to make 
some of these decisions, to decide what are the policies, the 
Administration to deal with the objectives that we found in 
Principles, part of the Principles and Guidelines.
    The processes of the Federal agencies are certainly 
amenable to change, and the agencies are willing to deal with 
many of these issues, but there are constraints that need to be 
lifted, and there is coordination and integration among the 
Federal agencies, as Mr. Rabbon said, that need to be 
addressed. We don't have a single coordinating element for 
water issues in the Federal Government right now in the 
Administration. We haven't had it since the Water Resource 
Council was abolished in 1983.
    So I think the challenge is to move quickly to get 
everybody on the team and to address, instead of addressing the 
easy issues first, address the hard issues first.
    Mr. Blumenauer. Mr. Chairman, I see I have 30 seconds. I 
don't want to abuse the privilege. Let me just say that the 
point Dr. Galloway made about the attention span, we are 
already seeing in terms of the amazing media attention, that it 
is starting to drift away. I think that that is very important 
counsel to us to guide, Mr. Chairman and the Ranking Member, in 
terms of how soon we can move this forward.
    I do sense it already, because there are many other issues 
that are moving forward. If we are able to build on this superb 
set of hearings that we have had, the consensus actually that 
is emerging from the expert witnesses, if we are able to move 
that in a timely fashion, I think that may be one of the most 
elements that I take away from this and I hope we can 
accelerate.
    I appreciate you moved quickly, but I think time is running 
short for us to have the impact that the public needs.
    Mr. Duncan. All right, thank you very much.
    Dr. Boozman.
    Mr. Boozman. Mr. Rabbon, can you tell us about the other 
cities that are at risk like New Orleans?
    Mr. Rabbon. Yes. I do come from the city of Sacramento. I 
live behind a levee. I would be flooded 10 feet deep if the 
levee failed. I also happen to have a boat in my garage.
    [Laughter.]
    Mr. Rabbon. Sacramento is an area that is protected 
completely by levees, surrounded by levees. In the central 
valley of California, there are over 1,600 miles of levees that 
are federally authorized. Literally every city or town in the 
central valley of California is protected by some type of flood 
control system.
    So I am just speaking from my experience as general manager 
of the reclamation board. NAFSMA, we have over 100 
organizations. They all, almost essentially all of them have 
some type of federally authorized flood control project, or are 
working on studies or activities with the Corps of Engineers. 
So in terms of levees, it is a major issue across the U.S.
    Mr. Boozman. How accurate are our flood control and our 
floodplain maps? How up to date are they?
    Mr. Rabbon. They are accurate the date they are published.
    Mr. Boozman. When were they published?
    Mr. Rabbon. Each one would vary, but once they are 
published, from that point on, the way that maps are developed, 
the go out of date. A map, especially, you're referring 
probably to the FEMA map, is just a snapshot in time. Once you 
have taken that snapshot, development will continue, 
development will modify what those maps look like. Hydrology 
changes, many people here on the Committee have talked about 
the changing climate, the sea level rise. All those things will 
impact the maps.
    As another local example, for Sacramento, when Folsom Dam 
was built, we had 250 year level of protection. It dropped down 
to as low as a 70 year level, and the only thing that changed 
was the hydrologic data. Nothing else changed.
    Mr. Boozman. Isn't it a significant problem that the maps 
that we have now aren't up to date, and that people in good 
faith, that are trying to do the right thing, can't do it 
because they don't have the information to make that 
determination?
    Another thing is, how do we solve that problem?
    Mr. Rabbon. Those maps do need to be updated. There is a 
remapping program through FEMA that does need additional 
funding in order to update those maps.
    Mr. Boozman. You mentioned, and again, this is for the 
panel, I think most of you feel like we need to go to a 500 
year flood whatever. You mentioned the levees. In many cases, 
the levees aren't going to get it. Is the panel suggesting that 
we need to look at additional dams and things of that nature?
    Mr. Galloway. Sir, I would argue that it could be a 
combination. I think you have to look at each case and decide 
what is the comprehensive approach to it. Because if you do 
something in this particular area, you may affect the people 
downstream.
    That goes back to the issue of a comprehensive, multi-
faceted approach. There are floodways being considered, 
upstream storage and wetlands. There are many ways to do it. I 
think in each case, you need to see what is the appropriate 
approach that you need to take in this particular region.
    Mr. Emmer. I would suggest in our case, and in cases such 
as Port Arthur and California, where we live behind levees, is 
that we strengthen our first line of defense, but internally we 
have to take responsibility for ourselves. We need to start 
looking at elevating houses within the community and simply 
looking at those areas that are too low to protect, and should 
you choose to live with these areas, build up, but you accept 
the risk if the flood is higher than the height of the 
elevation of the structure that you choose.
    But there needs to be some personal acceptance of 
responsibility when you live inside the levee system to take 
care of yourself.
    Mr. Boozman. I guess I would argue, and I hope that you 
will support us, that in order to really figure out what you 
need to do, you have to understand the risk. And if you don't 
have accurate floodplain data, which we don't, it doesn't 
appear, it create difficult situations.
    Mr. Galloway. Sir, the FEMA floodmap modernization program, 
which Mr. Rabbon mentioned, is the real giant start on a 
program supported by ASFPM and NAFSMA to get the program going. 
It is in the second year of what is envisioned to be a five 
year, but certainly will last longer with the new-found 
emphasis. But there are modern techniques. We are finally able 
to capture the strength of GIS and computer data bases and 
LIDAR to go and found very accurately what elevations are.
    The one challenge we still have in that is, how do you know 
about the integrity of the levees that are there. That is the 
toughest job. Walking along the surface of a levee, you don't 
see very much. So it is a complex job that is going to require 
a lot of effort and each of the panelists have mentioned that.
    Mr. Boozman. Thank you very much.
    Mr. Duncan. Thank you.
    Ms. Johnson.
    Ms. Johnson. Thank you very much.
    I appreciate all the witnesses, I think that all of you 
brought a great body of knowledge. As I sit here listening, 
however, I fully recognize that where we are in terms of the 
temperature of the water and all that, we are subject to have 
other catastrophes and when, we don't know. But I do have a 
concern that building back New Orleans before we get an 
opportunity to improve the levees might place us in the same 
position that we are now. And that is the whole Gulf Coast.
    The other thing is, we have had hearings on the possibility 
of a tsunami for California, or warnings and what have you. We 
look at Florida and we have had some tremendous floods in New 
Jersey and all. I just wonder if we need to do a nationwide 
inventory and start to perhaps alter housing. Because I don't 
know that we will ever have enough money to build these 
floodplain areas to the point of not flooding. And if we even 
had enough money, it takes a while to get that done.
    If we could get a current inventory around the Nation and 
the danger which we might see, because we did know about the 
possibility of New Orleans, but there was nothing that we found 
ourselves being able to accomplish to address it prior to it 
happening. We have a bill that was passed out of the House 
about three months ago that had quite a bit of money for the 
area. And I am not saying that if we had it appropriated, it 
would have prevented that.
    But I am saying that to emphasize the length of time it 
takes to implement whatever we appropriate for. And I think the 
Corps of Engineers probably has done the best they could do 
with the money they had and the situations. But we do have to 
improve it.
    Now, we have had some of these computerized projections of 
what downtown Dallas is going to look like over the Trinity 
River corridor. And we have had some pretty dangerous floods, 
but we are vulnerable now. I think probably we will have it by 
the time we get any attention given to it.
    But how do we approach this? I would just like to hear from 
each of you and your opinions of how we go about it and what 
kind of money would it take and just give us your degree of 
expertise. Let's start with California. We could move that 
whole State out, I guess, the whole State is vulnerable.
    [Laughter.]
    Ms. Johnson. How would you start now to try to protect?
    Mr. Rabbon. You are correct, time is of the essence. And 
the State of California actually has issued a report entitled 
Sudden Management Crisis, it actually calls it a ticking time 
bomb. I don't have a great solution, but one thing that I do 
offer is the idea of a national assessment is critical, that we 
will start to get our arms around it.
    But I think the Corps of Engineers has their cost-sharing 
program. That has basically said, those that are serious at the 
non-Federal level, step up, put your money on the table, we 
will work with you.
    I think if you take that into consideration, that might 
help address the timing concern. Those at the local level that 
know they have a problem, that are serious about helping to get 
their problem solved, if they step up to the table, you are 
going to see those areas go quicker. That will be the urban 
areas. Those will be the ones that probably have a tax base 
where they can put money on the table.
    So that's the one item I offer to try to move things 
quicker, is look at cost sharing.
    Ms. Johnson. Thank you.
    Mr. Emmer. As we rebuilt New Orleans, there are a lot of 
homes that simply don't exist any more, that were simply 
destroyed, others that need to be torn down. I believe that 
when these are rebuilt, they should all be elevated, there 
should be no slab houses left or allowed in those areas where 
we had inundation.
    We know that is acceptable to live at least to a plus nine 
feet above surface elevation with a New Orleans type basement 
house, where the first floor is actually open space, 
essentially, where you park your car and that type of thing. 
These houses have existed in New Orleans since the 1910s and 
1920s, an acceptable, traditional way of building.
    We can build on piers. When I rebuilt my house after a 
fire, I built on piers, because I don't like slab, obviously. I 
think that has come across. But it only added about 2 percent 
to the cost of the house. Once you start moving the house up, 
it is like making reproductions of paper. The first 500 costs 
you something, but everything after that is essentially paper, 
so you are moving up 2 percent to do the first 18 to 24 inches, 
after that it is just some minimal amount of money to get it up 
to almost any height that you want. It is whether it is 
culturally acceptable. That can be done now.
    The second thing is, we can offer people a chance to move 
into some of these vacant houses, get them back on the tax 
roll, upgrade them through other Federal programs, such as HUD, 
and give people the opportunity to have safer homes in less 
flood-prone areas.
    So I think there is plenty we can do right now as we look 
at upgrading our levee systems. We don't have to wait until the 
levees are done.
    Mr. Galloway. I would comment that I think education is a 
very important part of this, knowing the risks that you face. I 
compliment the State of California, and actually the media in 
California, which has put a lot of attention on getting this 
word out, that you are at risk. We have recommended in the past 
national inventory of flood-prone structures and equally 
important, an inventory of what is the risk to Federal 
facilities in the floodplain.
    OMB has chosen not to press that issue, but I think it 
needs to move ahead, because there is a risk. All of that says, 
if you know where the risk is, then a rational person may well 
avoid moving into that area. That would be the first big step. 
The other step is to avoid building in the floodplain new 
areas, as Mr. Emmer mentioned, when you don't need to, when 
there are alternative locations. Yet we see day after day 
people wanting to build something in the floodplain and throw a 
levee around it and say that they are protected. I think we 
need to educate the populace.
    Mr. Dickey. I think an enormous contribution could be made 
by requiring people to buy flood insurance even though they 
live outside the 100 year floodplain, let's say, up to the 500 
year floodplain. That would be a very effective way of 
informing people and reminding them every year of the risks 
that they really in fact face.
    Ms. Johnson. Thank you very much, to all of you. My time 
has expired.
    Mr. Duncan. Thank you very much. Mrs. Schmidt.
    Mrs. Schmidt. Thank you. This is directed to the panel.
    Today, many people have talked about migration away from 
the floodplain when a natural disaster occurs as a way to 
handle not rebuilding in the floodplain. My concern is, people 
have a short term memory and they will come back.
    I am also concerned that with the rebuilding, there is not 
a uniform building code along that portion of the coast that 
has been devastated. So there is an inability to control what 
is being built in a responsible way.
    Do you have any suggestions?
    Mr. Emmers. In the case of Louisiana, I know unfortunately 
many parishes do not have building codes. So your brother-in-
law can go out there and put in the wrong size wire and burn 
the house down. Why we choose not to do that, I am not sure. It 
seems like a pure family safety factor.
    But that is some initiative that the State needs to 
seriously take and implement, a building code that would 
satisfy and address the issues of health, safety and storm 
surge and flooding. It is something we in Louisiana definitely 
need to address. How we force the legislature to do it, I am 
not sure.
    Mr. Galloway. The House committee that was dealing with 
this after the Mississippi floods came up with that very same 
question: what do we do? And the answer is, it is very 
difficult to seem unkind to the people that are at risk. Yet 
reality is that you need to get the people who are at the local 
level and the Federal officials all agreeing that you need 
tough love in this post-disaster period. You need to be able to 
tell people and to pass emergency legislation at the local 
level that says, you may not rebuild in here unless you adhere 
to new codes.
    That is tough. And people have been reluctant to do that. 
But that is the only way we will prevent it. Because right now, 
there are so many incentives and so many programs that are 
helping the people ``get back on their feet,'' we may put them 
back on their feet but in the wrong place. So we need 
coordination and we need some tough love.
    Mr. Rabbon. I would like to add one other item. I had 
discussed an incentive-based cost sharing with the concept that 
the Corps of Engineers consider not just structural but non-
structural elements of a federally-authorized flood control 
project. This could work very well for your concept, be it if 
the Corps was doing a federally-authorized flood control 
project, if they had an incentive-based cost sharing that would 
say, well, if you reserve this area as part of the project for 
open space and make sure there is, for perpetuity, no longer 
construction in this area, we are going to give you some 
special consideration and cost sharing on your larger project. 
So by changes in the policy and guidelines, there could be 
potential to address your concern.
    Mrs. Schmidt. Thank you.
    Mr. Duncan. Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman, for convening this 
hearing. I want to express a particular welcome to Dr. Emmer. 
He and I have labored in the floodplain fields for many, many 
years, and I have regard for his opinions.
    I just wish to make a comment, I really don't have a 
question unless a member of the panel wants to respond. But I 
have introduced H.R. 4100, I appeared before the Committee some 
time ago relative to the Louisiana Recovery Corporation. The 
bill is now filed. It creates an off-budget corporation which, 
through a financial mechanism, basically issues Treasury debt 
that can fund improvements in the Katrina-affected area, over a 
period of time getting us out of the Congressional 
appropriations cycle where you have to come in and ask for huge 
chunks of money, because we will require timely, year over 
year, expenditure, not one lump sum, which lends itself to 
other problems.
    Secondly, the opportunities afforded to an adversely-
affected homeowner from being a partner in the redevelopment 
and taking no money from us, but getting a reclaimed lot on 
which they can rebuild at a future time, to taking a cash 
settlement and moving on, to taking a cash settlement and 
having the first right of refusal on a lot they buy back at 
some subsequent time, in other words, a lot of options that the 
homeowner determines what is best for their family to have a 
bottom-up plan.
    But the corporation is vested with the responsibility to 
acquire, as best possible, all the tracks that are adversely 
affected, not likely to be reclaimed or rebuilt, and do the 
levee restoration, simultaneous with the environmental 
remediation, and then bring in free enterprise developers to 
bid on those reclaimed tracts, which provide some repayment to 
taxpayers on the back side of the deal. So the Federal taxpayer 
investment is a bridge loan against which payments from the 
sale of lots to developers in future years will enable some 
reduction in the overall Federal liabilities.
    All that works. Now, some people say, why go to the 
trouble, and to Mrs. Schmidt's observation that people do come 
back, well, in our case, there is economic necessity for people 
to come back. Thirty percent of the Nation's oil and gas, 30 
percent of the Nation's seafood, the port, which exports 70 
percent of everybody's grains and corn, those are good jobs. 
People are going to come back for good jobs.
    So if people are going to be there, how do we mitigate 
against the potential of repetitive loss? One, of course, the 
obvious, is levee restoration and integrity. But I would point 
out in New England two weeks ago, we had a dam failure. And 
although not of the cataclysmic scope of Katrina, the 
consequences were very similar. You had people who had never 
flooded, you had a structure that was well over 100 years old, 
looked like something that was built around the Civil War, that 
was to protect them from invasive floodwaters.
    Well, that is no more responsible than people living south 
of New Orleans. So we have to be very careful about saying, you 
can't live there, because if there is a danger, we have to 
truck you out somewhere. We are all going to wind up on a hill 
in the middle of Oklahoma somewhere, and we are going to be 
watching for tornadoes. That doesn't make economic sense.
    At the same time, we have a flood insurance program which, 
on its face, seems to work better than any other natural 
disaster response. Nobody has taken affront to the fact that 
when a natural disaster occurs somewhere else in the Country, 
we write checks directly out of the Treasury with no hope of 
repayment. That is not a problem. We have a flood insurance 
program which collects premium, which since about 1988 has 
repaid every dollar advanced on a line of credit, plus 
interest. And that is a defective program. I am missing the 
logic to these arguments.
    What we need is, rather than having Louisiana as the second 
highest conforming flood insurance participant with slightly 
over 40 percent of the people in the floodplain paying premium, 
we need to get everybody in, mandatorily. If you live there and 
it is surveyed as in the floodplain, you are going to pay.
    Now, we can screen this even better. If it is your primary 
residence, you pay one rate. But if you are down there buying a 
suntan on the sunny coast of X, Y or Z, and it is your second 
home, you ought to be paying actuarial rates. Or else you have 
no business being there. That is logical.
    Why we won't do it, I don't know. And what I have learned 
this morning, most troubling, and the reason why I am not my 
customary calm self, Mr. Chairman--
    [Laughter.]
    Mr. Baker.--is FEMA has the statutory authority now to 
constrain rebuilding activities in Louisiana and Mississippi 
and simply is not exercising their statutory obligation to say, 
don't build here again under these circumstances, and paying 
people and hinting it's okay to rebuild.
    I just came from Financial Services, where that subject 
just came up. I have signed on to a letter with Mr. Frank, 
Chairman Oxley and others, and I am going to suggest to 
Chairman Oxley he get that letter over for your attention. If 
FEMA has the authority to preclude repetitive loss and is 
simply not exercising their authority, that is just 
inexcusable.
    Mr. Taylor and I and others in the affected area are 
willing to step up and tell our constituents there has to be a 
different way of conducting our business. But if we already 
have the authority to preclude inappropriate conduct and we are 
not exercising that statutory authority, that is just 
inexcusable.
    So I would say, Mr. Chairman, we would modestly suggest in 
Louisiana, we want to pay our proportionate share. This storm 
has exhausted all available revenues to the community, to the 
State. New Orleans has no revenue. The State has already 
expended a billion and a half dollars that it does not have in 
response to the storm. So we are totally reliant on your good 
generosity to resolve the circumstance.
    But we must recognize that people out of economic necessity 
will return, that there are appropriate remedies that can be 
posed and some voluntary, many mandatory, that we should take. 
And that at the end of the day, we can have a fully funded, 
required flood insurance program that provides repayment to the 
American taxpayer over time when these calamities occur. And 
they are certainly going to occur again.
    I give up, Mr. Chairman.
    Mr. Duncan. Well, thank you very much, Mr. Baker. As I have 
mentioned in here one other time, all of the delegation that 
went down to Louisiana was so impressed with your handling of 
the entire situation. You have had to go through things in the 
last several weeks that none of us would wish on our worst 
enemies. It has been a very difficult and time consuming thing. 
Certainly, I think you are absolutely correct in the comments 
that you have just made.
    Mr. Baker. Mr. Chairman, I hate to interrupt, but I just 
want to point out, not that I am down on my luck, but I 
actually paid good money for tickets to the fifth game of the 
World Series. I just want you to know that.
    [Laughter.]
    Mr. Duncan. Well, I hope it starts turning around for you. 
And I was rooting for Houston, so that didn't do much good.
    [Laughter.]
    Mr. Duncan. Well, I said a few minutes ago that Dr. Dickey 
had brought up the most difficult part of this whole process, 
and that is that we have to try to figure out what is the best 
use of very limited resources. As we have pointed out in here 
before, the Federal Government has an important role and it has 
a leadership role. But it can't do it alone.
    I have some questions in that regard. But first, Dr. 
Dickey, I did mention my friend Earl Blumenauer has brought up 
in this Subcommittee frequently the Principles and Guidelines. 
Do you think that the Principles and Guidelines are so 
inflexible that they need to be thrown out and we ought to 
start over again? Well, let me ask you this, instead of me 
saying that.
    Do you think that most people who study these needs feel 
that we should take in a whole lot more into consideration than 
just the cost benefit or benefit cost considerations?
    Mr. Dickey. Mr. Chairman, first of all, the Principles and 
Guidelines are very, very flexible. They are simply a framework 
for systematically looking at alternatives and can accommodate 
a wide range of objectives. So I am very wary, frankly, of 
changing the Principles and Guidelines.
    There are lots of details about how they are implemented, 
but that is within the discretion of the agencies. I think you 
open a can of worms, frankly, and it is noteworthy that when 
people say they want to change them, you ask them, well, how do 
you want to change them. You get different stories. OMB wants 
to change them. They said that in a recent statement of 
position. They want to make it harder to justify projects.
    Other people I think want to make it easier. Other people 
want to add another objective, talk about environmental 
quality. Well, we had experience with environmental quality as 
an objective in the Carter Administration, and it just produced 
an enormous amount of confusion.
    Mr. Duncan. Right. What about the cost benefit analysis 
considerations? What I am getting at is people are saying that 
we need to take into consideration safety first, as Mr. Rabbon 
said. We need to give priority to human life. Nobody would 
dispute that.
    On the other hand, I would assume that none of the four of 
you on this panel think that we should just totally throw out 
the window cost benefit, or as some people refer to it, benefit 
cost considerations. What do you say about that?
    Mr. Dickey. I would hope not, Mr. Chairman. Again, the 
Principles and Guidelines, if you read the Principles, you can 
accommodate other concerns, whether it be loss of life or 
environmental values, whatever. Those all can be accommodated. 
The Corps is accommodating them. In fact, if you look at the 
Everglades Restoration Project, there is no BC ratio for that. 
For Coastal Louisiana, there is no BC ratio for that.
    The reason we haven't incorporated human life into 
evaluations is because we have just chosen as a policy not to 
do it. People are wary about, for 9/11, the value of human life 
was quantified. EPA quantifies it, incorporates it into benefit 
cost analysis. It is merely a practice of the agencies. There 
is no reason to have to change the P&G to change that.
    Mr. Duncan. Well, you have mentioned two of the three 
biggest projects that we had in the WRDA bill that we passed a 
couple of times here now in the House, and it has gotten bogged 
down in the Senate. We had huge amounts of money for funding of 
Everglades restoration and work along the Gulf Coast and 
Coastal Louisiana.
    Dr. Galloway, I think everybody was so impressed with your 
testimony. You certainly have knowledge of this, especially 
from your 1993 study. But let me ask you this. You mentioned in 
your testimony the 1,250 year protection in the Netherlands 
along the rivers and the 10,000 year protection along the North 
Sea Coast.
    That sounds good, but, it just wouldn't be possible for us 
to do anything like that all around this Country, would it? Do 
you have any idea how much that would cost for the United 
States to do something like that? You aren't advocating that, 
are you?
    Mr. Galloway. No, I am not advocating a 1,000 year, 1,250 
year protection. But I am advocating for, as our report did, 
and my colleagues have, that we have an increased amount of 
protection provided for major population centers.
    Mr. Duncan. And I would agree with that.
    Mr. Galloway. Sir, I think that the issue becomes one, in 
the 1930s, after the 1927 flood on the Mississippi that really 
got us started, they said, let's figure out what is the worst 
storm that we can have and let's protect against it. That is 
what has been in place on the Mississippi River since 1928.
    I think that we need to examine each of the areas and see 
what it is that is appropriate, taking other steps like flood 
insurance to protect against residual risks. No, I am not 
suggesting that we provide 10,000 year protection, but I think 
it is rather interesting that we have very high level of 
protection on the Mississippi River side of New Orleans, and a 
considerably lower level on the hurricane protection side, Lake 
Pontchartrain.
    So I think we need to go around and see what our program 
is. That is why I have advocate, and in our report we advocated 
this inventory to see what really is the challenge. There is a 
study of the National Flood Insurance program underway that 
looks at many of these issues and what is the right level of 
protection and those sorts of issues have been addressed.
    So I think it is opening the dialogue to say that we should 
not accept 100 years as the standard. We ought to decide where 
it is we want to have the higher level.
    Mr. Duncan. I am presently reading a real interesting book 
called Storm of the Century about the hurricane that hit the 
Keys on September 2nd, 1935. A lot of people just don't realize 
that the worst year was 1933 while the worst decade was the 
1940s. Anyway, it is a fascinating subject to me.
    Dr. Emmer, my understanding is the State of Louisiana has 
requested 500 year protection for the entire coast of 
Louisiana. What do you say about that? And how much would that 
cost, do you think?
    Mr. Emmer. Cost-wise, I do not have an estimate of what 
that would cost. There was, in the New Orleans Times Picayune 
on Tuesday a map that was reproduced showing what was 
supposedly the barrier plan that would extend from St. Tammany 
Parish across to below the Atchafalaya. The Governor's Coastal 
Commission received reports from a Congressional delegation and 
also some internal reports. I did not, or do not have those 
detailed figures, but there is a very big writeup in the New 
Orleans Times Picayune this past Tuesday on that.
    Do I see it as working? Realistically probably not. I see 
protecting the areas where we have existing development. But 
when we looked at the barrier plan back in the 1980s, a 
conscious decision was made to go with the levee alternative, 
not to put a barrier across the Chef and the Rigolets.
    I think that upgrading and protecting the areas where we 
life, as was indicated before, we protect what we have, we 
rebuild the wetlands and the fact is we have to accept that 
there is only so much habitable land within the State of 
Louisiana, at least in the coastal zone. That is where we are.
    Mr. Duncan. Have you looked into this business about the 
soil erosion or the levees giving way underneath?
    Mr. Emmer. I am not an engineer, however, I do have a 
background in geology. If you look at the soil surveys for East 
Jefferson Parish and for Orleans Parish, you see that there are 
lenses of peats all the way across. These have been identified 
since the soil surveys were published. They should have been 
anticipated. As I said, I am not an engineer. I don't know why 
or how they were missed.
    I will say that I was surprised that the sheet pile were 
only 15 feet long. I would have thought that they would have 
been much deeper than that. But again, I am not an engineer, so 
I cannot speculate on any of that.
    Mr. Duncan. All right, Mr. Rabbon, we have to close this 
out. I have to be in another meeting in about five minutes, but 
I am going to give you a chance. You have heard all these 
questions and comments here. Any closing thoughts? I am going 
to give you the last word here.
    Mr. Rabbon. My thought is, with all the effort you have put 
in, I certainly hope that we seize upon this opportunity that 
is before us to make some improvements for public safety.
    Mr. Duncan. You know, I think we will. I think that we will 
take some actions. As bad and horrible and terrible as all the 
things that have happened with Katrina and Rita, as I have said 
at some of these other hearings, we have to do everything we 
can to make sure that the money that we have sent down there is 
not spent in scandalous or wasteful ways and the taxpayers 
don't get ripped off.
    But I do think that this Country is better at bringing good 
out of bad than any other Country in the world. So, as critical 
as some people have been about things that have happened, or 
some of the response, no other Nation in the world would have 
responded as quickly or in such a wonderful and big way as we 
did in this Country to a disaster or to disasters of the 
magnitude that we have seen.
    Well, you have been outstanding witnesses and we certainly 
appreciate your help to us in this regard. That will conclude 
this hearing.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5918.001
    
    [GRAPHIC] [TIFF OMITTED] T5918.002
    
    [GRAPHIC] [TIFF OMITTED] T5918.003
    
    [GRAPHIC] [TIFF OMITTED] T5918.004
    
    [GRAPHIC] [TIFF OMITTED] T5918.005
    
    [GRAPHIC] [TIFF OMITTED] T5918.006
    
    [GRAPHIC] [TIFF OMITTED] T5918.007
    
    [GRAPHIC] [TIFF OMITTED] T5918.008
    
    [GRAPHIC] [TIFF OMITTED] T5918.009
    
    [GRAPHIC] [TIFF OMITTED] T5918.010
    
    [GRAPHIC] [TIFF OMITTED] T5918.011
    
    [GRAPHIC] [TIFF OMITTED] T5918.012
    
    [GRAPHIC] [TIFF OMITTED] T5918.013
    
    [GRAPHIC] [TIFF OMITTED] T5918.014
    
    [GRAPHIC] [TIFF OMITTED] T5918.015
    
    [GRAPHIC] [TIFF OMITTED] T5918.016
    
    [GRAPHIC] [TIFF OMITTED] T5918.017
    
    [GRAPHIC] [TIFF OMITTED] T5918.018
    
    [GRAPHIC] [TIFF OMITTED] T5918.019
    
    [GRAPHIC] [TIFF OMITTED] T5918.020
    
    [GRAPHIC] [TIFF OMITTED] T5918.021
    
    [GRAPHIC] [TIFF OMITTED] T5918.022
    
    [GRAPHIC] [TIFF OMITTED] T5918.023
    
    [GRAPHIC] [TIFF OMITTED] T5918.024
    
    [GRAPHIC] [TIFF OMITTED] T5918.025
    
    [GRAPHIC] [TIFF OMITTED] T5918.026
    
    [GRAPHIC] [TIFF OMITTED] T5918.027
    
    [GRAPHIC] [TIFF OMITTED] T5918.028
    
    [GRAPHIC] [TIFF OMITTED] T5918.029
    
    [GRAPHIC] [TIFF OMITTED] T5918.030
    
    [GRAPHIC] [TIFF OMITTED] T5918.031
    
                                    

</pre></body></html>
